Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   Durable Medical Equipment
 Ordered with Surrogate Physician
     Identification Numbers




                    JANET REHNQUIST
                    INSPECTOR GENERAL

                     SEPTEMBER 2002
                      OEI-03-01-00270
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                          EXECUTIVE SUMMARY


PURPOSE

         To examine supplier billing and documentation practices for durable medical equipment,
         prosthetics, orthotics, and supplies (hereinafter, referred to as medical equipment) ordered with
         surrogate unique physician identification numbers.


BACKGROUND

         Title XVIII of the Social Security Act prescribes coverage requirements under Part B of the
         Medicare program. Part B covers physician and outpatient hospital services along with a
         variety of other services, including the rental or purchase of medically necessary medical
         equipment. Medical equipment includes a wide range of items prescribed by a physician for
         use at home, such as hospital beds, wheelchairs, oxygen devices, surgical dressings, splints, and
         casts.

         Medicare beneficiaries covered under Part B are eligible to receive medical equipment ordered
         by a physician or non-physician provider and furnished by a supplier who has been issued a
         billing number by Medicare. If the ordering physician has not been assigned a unique physician
         identification number (UPIN), the supplier must use a temporary or surrogate UPIN when
         submitting claims.

         We selected a sample of 250 medical equipment claims from the Centers for Medicare &
         Medicaid Services’ National Claims History File for 1999 for our review. The sample
         consisted of claims for medical equipment ordered by physicians with surrogate UPINs. We
         contacted the suppliers who submitted the claims and requested documentation to support each
         sample service. We also asked for pertinent physician information, including the State in which
         the prescribing physician is licensed, medical specialty, and permanent UPIN, if known.


FINDINGS

Sixty-one percent of services reviewed should have been ordered using a
permanent UPIN rather than a surrogate

         For 61 percent of services, ordering physicians had permanent UPINs at the time the service
         was provided. Physicians for more than one-third of these services had individual UPINs for at
         least 5 years prior to the dates on the claims. Physicians for 17 percent of these services had
         individual UPINs at least 10 years before the dates of service.

Medical Equipment Ordered with Surrogate UPINs       i                                        OEI-03-01-00270
Supporting documentation was missing or incomplete for 45 percent of services
ordered using a surrogate UPIN

         Nearly half of services ordered with a surrogate UPIN (45 percent) had either: (1) no written
         order or certificate of medical necessity (CMN) to support the service, or (2) a written order or
         CMN with one or more items missing. Medicare paid an estimated $61 million for these
         services in 1999.

         Seventeen percent of services ordered using a surrogate UPIN had no supporting
         documentation. For 28 percent of services ordered with a surrogate UPIN, at least one piece
         of required information was missing from the documentation. The elements most often missing
         from the CMN were the beneficiary height (18 percent) and weight (17 percent).
         Documentation for 5 percent of services did not include the physician’s UPIN, and
         documentation for 4 percent of services did not include the supplier billing number. The
         elements missing from physician orders were the physician’s name or signature, description of
         the item being ordered, or the date of the order.

Documentation for 9 percent of services was dated months after the service date

         Supporting documentation for 9 percent of services was dated more than 31 days after the
         service date provided on the Medicare claim. Seventy-one percent of these services had
         CMNs as supporting documentation and 29 percent had physician orders. Medicare paid an
         estimated $15 million for these services in 1999. For 6 percent of services, documentation was
         dated 4 or more months after the date of service. For 1 percent of services, documentation
         was dated in excess of 1 year after the date of service on the claim.



CONCLUSION AND RECOMMENDATIONS

         We believe the use of surrogate UPINs on Medicare claims poses a vulnerability to the
         Medicare program. We found a substantial number of documentation problems in the
         supporting evidence submitted by suppliers for claims processed with surrogate UPINs. Our
         review found that 17 percent of services had no supporting documentation, and another 28
         percent had at least one piece of required information missing from the documentation. We
         have referred all of the services with missing or incomplete documentation to CMS for
         appropriate action. In 1999, we estimate Medicare paid $61 million for services ordered
         with a surrogate UPIN that had missing or incomplete supporting documentation.

         The findings detailed in this report also revealed misuse of surrogate UPINs on Medicare
         claims. We found that surrogate UPINs were incorrectly used for many services since the
         ordering physician had already been issued a permanent UPIN. We believe this is a


Medical Equipment Ordered with Surrogate UPINs      ii                                       OEI-03-01-00270
         significant problem given that the use of a surrogate UPIN on medical equipment claims allows
         them to be processed automatically whether the equipment has been ordered by a physician or
         not. If the inappropriate use of surrogate UPINs by suppliers goes unchecked, the Medicare
         program becomes vulnerable to fraudulent billings and inappropriate payments. Therefore, we
         recommend that CMS:

         <	        Perform targeted reviews of claims for medical equipment ordered with surrogate
                   UPINs.

         <	        Continue to educate suppliers and physicians that accurate UPINs must be used on
                   claims, and surrogate UPINs should not be used if the ordering physician has a
                   permanent UPIN. For example, an article could be included in carrier bulletins
                   reminding suppliers of proper documentation practices.

Agency Comments

         The CMS concurred with our recommendations and indicated that the agency will take the
         necessary steps to increase the monitoring of UPINs and to educate suppliers and providers
         that accurate UPINs are required on submitted claims. The CMS also stated that Medicare
         must set priorities for validating the UPIN information. As a result, CMS will be implementing
         several initiatives to improve the accuracy of UPIN reporting. Such initiatives include
         instructing DMERCs to decrease the use of surrogate UPINs through education and training,
         expanding Medicare Carrier Manual UPIN monitoring instructions to include DMERCs, and
         increasing central office/regional office monitoring of DMERCs’ UPIN activities. Appendix B
         contains the full text of CMS’ comments.




Medical Equipment Ordered with Surrogate UPINs       iii                                    OEI-03-01-00270
                             TABLE OF CONTENTS

                                                                                                                              PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS

          Services Should Have Been Ordered Using a Permanent UPIN . . . . . . . . . . . . . . . . . . . . . . 6


          Services with Missing or Incomplete Documentation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


          Documentation Dated Later than Service Date . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


APPENDICES


          A. Estimates and Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          B. Comments from the Centers for Medicare & Medicaid Services . . . . . . . . . . . . . . . . . . 15


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16





Medical Equipment Ordered with Surrogate UPINs                    iv                                                    OEI-03-01-00270
                                     INTRODUCTION


PURPOSE

         To examine supplier billing and documentation practices for durable medical equipment,
         prosthetics, orthotics, and supplies (hereinafter, referred to as medical equipment) ordered with
         surrogate unique physician identification numbers.


BACKGROUND

         Title XVIII of the Social Security Act prescribes coverage requirements under Part B of the
         Medicare program. Part B covers physician and outpatient hospital services along with a
         variety of other services, including the rental or purchase of medically necessary medical
         equipment. Medical equipment includes a wide range of items prescribed by a physician for
         use at home, such as hospital beds, wheelchairs, oxygen devices, surgical dressings, splints, and
         casts.

         The Centers for Medicare & Medicaid Services (CMS), which administer the Medicare
         program, contract with four durable medical equipment regional carriers (DMERCs) to process
         and pay claims for medical equipment. Medicare beneficiaries covered under Part B are
         eligible to receive needed medical equipment ordered by a physician or     non-physician
         provider and furnished by a supplier who has been issued a billing number by Medicare.
         Suppliers submit claims for reimbursement to the DMERCs in either paper or electronic format.
         In 1999, the DMERCs paid more than $6.2 billion for medical equipment claims. These
         payments include the 20 percent coinsurance amount for which Medicare beneficiaries are
         responsible.

UPIN Requirements

         The unique physician identification number (UPIN) is a six-character identifier assigned to
         physicians, non-physician practitioners, and medical groups that provide services or order
         medical equipment for Medicare beneficiaries. In this report, we use the term “physician” to
         describe both physicians and other medical providers who are assigned UPINs.

         To receive a UPIN, each physician must send an application to the carrier serving his or her
         jurisdiction. The carrier reviews the application, validates the credentials of the applicant, and
         ensures that the physician is eligible for Medicare payment. Assigned UPINs are maintained in
         a national Registry of Medicare Physician Identification and Eligibility Records, also known as
         the UPIN Registry. Each physician should receive only one individual UPIN.


Medical Equipment Ordered with Surrogate UPINs       1                                         OEI-03-01-00270
         Medicare requires medical equipment suppliers to provide the name and UPIN of the physician
         ordering the equipment on the claim form. Without this information, the claim should be denied.
         The DMERCs use the UPIN in a variety of analyses, such as medical review and program
         integrity activities.

         The Health Insurance Portability and Accountability Act of 1996 (the Act) mandated the
         establishment of a new provider identifier, known as the National Provider Identifier (NPI).
         According to the Act, the NPI will eventually replace the UPIN.

Surrogate UPINs

         If the ordering physician has not been assigned a UPIN, the supplier must use a substitute
         UPIN, known as a surrogate UPIN, when submitting claims. According to Medicare
         guidelines, surrogate UPINs are temporary and may be used until an individual UPIN has been
         assigned. The DMERCs are required to monitor claims with surrogate UPINs. The CMS has
         established specific surrogate UPINs and guidelines for their use. These include:

         PHS000	             To be used by physicians serving in the Public Health Service, including the
                             Indian Health Service.

         VAD000	             To be used by physicians employed by the Department of Veterans Affairs or
                             serving on active duty in the U.S. military.

         RES000              To be used by physicians meeting the description of intern, resident or fellow.

         OTH000	             To be used when the ordering physician has not yet been assigned a UPIN, and
                             does not qualify for other surrogates listed above.

Claim Documentation Requirements

         Suppliers submit medical equipment claims to the DMERCs for review and payment. In
         order for a claim to be paid by Medicare, the supplier must have a written order from a
         physician to justify the medical need for the equipment. The order must include 1) the
         beneficiary’s name, 2) the ordering physician’s signature, 3) a description of the item ordered,
         and 4) the date of the order.

         Selected items of medical equipment require a Certificate of Medical Necessity (CMN) to
         justify Medicare coverage. For these items, the CMN may serve as the physician’s written
         order. The certificates are divided into four parts: Section A, which may be completed by the
         supplier, contains information on the beneficiary, supplier, and the beneficiary’s physician.
         Section B, which must be completed by the patient’s physician


Medical Equipment Ordered with Surrogate UPINs           2                                        OEI-03-01-00270
         or the physician’s employee, requires medical information and/or the results of clinical testing.
         Section C provides supplier information regarding a description of the item(s) being provided,
         the supplier’s charge for the item(s), and the Medicare allowance for the item(s). Section D
         contains the physician signature and date along with the physician’s attestation that the
         information provided is true and accurate.

         Suppliers must retain in their files the physician order as well as the CMN, if required, along
         with any other medical necessity information submitted by the ordering physician or required by
         the DMERCs. Medicare also requires suppliers to maintain a detailed record of all items
         furnished to the beneficiary, including brand names of items supplied, model numbers, and dates
         of delivery. The DMERCs are required to periodically audit supporting documentation in
         suppliers’ files.

Related Work by the Office of Inspector General

         In a related study entitled, “Medical Equipment and Supply Claims with Invalid or Inactive
         Physician Numbers,” (OEI-03-01-00110), we found that Medicare paid $32 million for
         medical equipment claims with invalid UPINs in 1999. Additionally, we found Medicare paid
         $59 million for medical equipment claims billed with UPINs that were inactive on the dates of
         service.

         In an earlier report, “Accuracy of Unique Physician Identification Number Data,”
         (OEI-07-98-00410), information in the UPIN Registry was found to be inaccurate. For
         example, there was a lack of recent claims activity for almost 25 percent of the “active” UPINs.
         In addition, the study found evidence of erroneous State license number information.


METHODOLOGY

Sample Design

         We created a file consisting of all paid medical equipment claims from the National Claims
         History file for the year 1999. This file contained $6.2 billion in allowances for medical
         equipment. From this file, we extracted all services for equipment ordered with surrogate
         UPINs and removed claims submitted by beneficiaries. The resulting file contained $147
         million in allowances for services ordered with surrogate UPINs.

         From the universe of medical equipment services ordered with surrogate UPINs in 1999, we
         removed all services with allowed amounts of $10 or less. Total Medicare allowances for the
         remaining services was $146 million. We then divided these services into two strata. The first
         stratum contained services for suppliers that met two criteria: 1) at least 25 percent of their
         allowed dollars were ordered with a surrogate UPIN, and 2) they received Medicare payments


Medical Equipment Ordered with Surrogate UPINs       3                                          OEI-03-01-00270
         for at least 50 services ordered with a surrogate UPIN. The second stratum contained services
         for suppliers that did not meet the two criteria. The first stratum contained 137,342 services
         and the second stratum contained 1,165,145 services. We selected a random sample of 125
         services from each stratum, for a total sample size of 250 services.

Data Collection

         Carrier requests. We contacted each DMERC and requested copies of the sample claims.
         We received copies of claims for 246 of the 250 sample services.

         Supplier requests. Using address information obtained from the National Supplier
         Clearinghouse, we sent letters to suppliers requesting documentation to support each sample
         service. We also requested pertinent physician information, including the State in which the
         prescribing physician is licensed, the medical specialty of the physician, and the physician’s
         individual UPIN, if known.

         We received responses for 227 of the 250 sample services. Of the 227 responses, 198
         contained supporting documentation and 29 had no supporting documentation. We made three
         attempts to contact suppliers for the requested information. If the suppliers did not respond to
         the three requests, we concluded that, for the purposes of this inspection, they did not have
         documentation to support the sample services. We did not receive responses for 14 services
         following three requests. We could not locate the suppliers for the 9 remaining services. We
         did not include these 9 services in our analysis.

Data Analysis

         Documentation from suppliers. We reviewed documentation from suppliers to identify
         ordering physicians. We also compared physician information on the claim form with the
         documentation submitted by suppliers. For medical equipment requiring a CMN, we reviewed
         the CMN as the supporting documentation. For all other medical equipment, we reviewed the
         physician’s order. We analyzed the documentation to determine if the CMNs and orders were
         completed according to DMERC requirements.

         We determined the type and number of required items that were not completed by physicians
         or suppliers in each document. We did not review documentation to determine if the
         beneficiary met medical necessity requirements.

         UPIN database. We examined the UPIN database to determine if the ordering physicians
         identified on claims or by suppliers had been assigned individual UPINs. If the physician had
         been assigned a permanent UPIN, we compared the date the UPIN was assigned to the
         physician with the date of service on the sample claim.

         Computation of estimated allowances. To compute Medicare payments for undocumented
         services and services with incomplete documentation, we totaled the

Medical Equipment Ordered with Surrogate UPINs       4                                        OEI-03-01-00270
         allowed amounts for these services and weighted the estimate to reflect our stratified sample
         design. The allowed amounts include the 20 percent coinsurance amount for which Medicare
         beneficiaries are responsible.

         Point estimates and confidence intervals for all statistics presented in the findings of this report
         are provided in Appendix A.
                                             ____________

         This inspection was conducted in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.




Medical Equipment Ordered with Surrogate UPINs         5                                          OEI-03-01-00270
                                                 FINDINGS

         The use of surrogate UPINs on claims for medical equipment services is a vulnerability to the
         Medicare program. From a universe of services totaling $146 million in 1999, we reviewed a
         statistically valid sample of 250 Medicare claims for medical equipment ordered with surrogate
         UPINs and found that suppliers could not provide adequate documentation for approximately
         45 percent of the services. Specifically, our review found that 17 percent of services had no
         supporting documentation, and another 28 percent had at least one piece of required
         information missing from the documentation. Nationally, we estimate that $61 million was paid
         for services not adequately documented in 1999. We also found that surrogate UPINs were
         incorrectly used for many services since the ordering physician had already been issued a
         permanent UPIN. We are recommending that CMS: (1) perform targeted reviews of claims
         for medical equipment ordered with surrogate UPINs, and (2) continue to educate suppliers
         and ordering physicians that accurate UPINs must be used on claims and that surrogate UPINs
         should not be used if the ordering physician already has a permanent UPIN.


Sixty-one percent of services reviewed should have been
ordered using a permanent UPIN rather than a surrogate

         For 61 percent of services, ordering physicians had permanent UPINs at the time the service
         was provided. Physicians for more than one-third of these services had individual UPINs for at
         least 5 years prior to the dates on the claims. Physicians for 17 percent of these services had
         individual UPINs at least 10 years before the dates of service.

         The use of an ordering UPIN on claims for medical equipment can provide certain protections
         to the Medicare program and its beneficiaries. The provision of a permanent UPIN on the
         claim is important because it allows Medicare to identify the physician who actually ordered
         the equipment for a beneficiary. The use of ordering UPINs on claims also ensures that
         Medicare beneficiaries are receiving equipment ordered only by qualified physicians. In
         addition, by summarizing claims data by UPINs, CMS can identify aberrant ordering or billing
         patterns for medical equipment. When surrogates are used instead of permanent UPINs on
         claims for medical equipment, these protections are no longer in place.

         According to Medicare guidelines, if the ordering physician has not been assigned a UPIN, only
         then can one of the surrogates be used. However, such usage is temporary and the surrogate
         should only be used until an individual UPIN is assigned. In a bulletin to suppliers, one
         DMERC stated: “If a physician currently has a UPIN, you must use that number.” Suppliers
         are not taking appropriate steps, as recommended by the DMERCs, to ensure that a
         physician’s individual UPIN is used on claims when he or she has one. Such steps include
         obtaining a UPIN directory from the Government Printing Office, checking Internet websites
         containing listings of permanent UPINs by State, and




Medical Equipment Ordered with Surrogate UPINs      6                                       OEI-03-01-00270
         contacting the ordering physician directly. One DMERC stated in a bulletin to suppliers that
         “All suppliers should review their claim submission processes to ensure that they submit all
         claims with correct UPINs.”


Supporting documentation was missing or incomplete for
45 percent of services ordered using a surrogate UPIN

         Nearly half of services ordered with a surrogate UPIN (45 percent) had either: (1) no written
         order or CMN to support the service, or (2) a written order or CMN with one or more items
         missing. Depending on the type of equipment provided, suppliers are required to have either a
         completed CMN or a physician order on file to support the Medicare claim. In 1999, we
         estimate Medicare paid $61 million for services ordered with a surrogate UPIN that had
         missing or incomplete supporting documentation.

Seventeen percent of services ordered using a surrogate UPIN had no supporting
documentation

         Suppliers did not submit supporting documentation for 17 percent of services ordered using a
         surrogate UPIN. For 3 percent of services, suppliers did not submit documentation after three
         written requests. For 14 percent of services, suppliers did respond but indicated that no
         documentation was available. Medicare paid an estimated $17 million in 1999 for claims with
         missing documentation.

Documentation for 28 percent of services was incomplete

         For 28 percent of services ordered with a surrogate UPIN, at least one piece of required
         information was missing from the CMNs or orders. The DMERCs require that all elements
         contained on supporting documentation be completed. In 1999, Medicare paid an estimated
         $44 million for services with incomplete documentation.

         Certificates of medical necessity for 25 percent of services ordered with surrogate UPINs were
         missing one or more pieces of information. Missing elements affected all sections of required
         information, including patient information, supplier information, physician information, and
         information related to the medical equipment ordered. For 9 percent of services, CMNs were
         missing three or more elements. The number of items missing on incomplete CMNs ranged
         from 1 to 14.

         There were a number of required elements missing from CMNs and physician orders. The
         elements most often missing from CMNs were the beneficiary height (18 percent) and weight
         (17 percent). For certain items of medical equipment, such as wheelchairs, height and weight
         are elements that need to be reviewed to ensure that beneficiaries are receiving the appropriate
         equipment. Documentation for 5 percent of services did not include the physician’s UPIN, and


Medical Equipment Ordered with Surrogate UPINs      7                                        OEI-03-01-00270
         documentation for 4 percent of services did not include the supplier billing number. The
         elements missing from physician orders were the physician’s name or signature, description of
         the item being ordered, or the date of the order.


Documentation for 9 percent of services was dated months
after the service date

         Supporting documentation for 9 percent of services was dated more than 31 days after the
         service date provided on the Medicare claim. Seventy-one percent of these services had
         CMNs as supporting documentation and 29 percent had physician orders. Medicare paid an
         estimated $15 million for these services in 1999. Some of these services also had items missing
         from the documentation. For 6 percent of services, documentation was dated 4 or more
         months after the date of service. For 1 percent of services, documentation was dated in excess
         of 1 year after the date of service on the claim.




Medical Equipment Ordered with Surrogate UPINs      8                                       OEI-03-01-00270
                                         CONCLUSION

         We believe the use of surrogate UPINs on Medicare claims poses a vulnerability to the
         Medicare program. We found a substantial number of documentation problems in the
         supporting evidence submitted by suppliers for claims processed with surrogate UPINs. Our
         review found that 17 percent of services had no supporting documentation, and another 28
         percent had at least one piece of required information missing from the documentation. We
         have referred all of the services with missing or incomplete documentation to CMS for
         appropriate action. In 1999, we estimate Medicare paid $61 million for services ordered
         with a surrogate UPIN that had missing or incomplete supporting documentation.

         The findings detailed in this report also revealed misuse of surrogate UPINs on Medicare
         claims. We found that surrogate UPINs were incorrectly used for many services since the
         ordering physician had already been issued a permanent UPIN. We believe this is a significant
         problem given that the use of a surrogate UPIN on medical equipment claims allows them to be
         processed automatically whether the equipment has been ordered by a physician or not. If the
         inappropriate use of surrogate UPINs by suppliers goes unchecked, the Medicare program
         becomes vulnerable to fraudulent billings and inappropriate payments.


                             RECOMMENDATIONS

         We recommend that CMS:

         <	        Perform targeted reviews of claims for medical equipment ordered with surrogate
                   UPINs.

         <	        Continue to educate suppliers and physicians that accurate UPINs must be used on
                   claims, and surrogate UPINs should not be used if the ordering physician has a
                   permanent UPIN. For example, an article could be included in carrier bulletins
                   reminding suppliers of proper documentation practices.

Agency Comments

         The CMS concurred with our recommendations and indicated that the agency will take the
         necessary steps to increase the monitoring of UPINs and to educate suppliers and providers
         that accurate UPINs are required on submitted claims. They also stated that Medicare must set
         priorities for validating UPIN information. As a result, CMS will be implementing several
         initiatives, which include instructing DMERCs to decrease the use of surrogate UPINs through
         education and training, expanding Medicare Carrier Manual


Medical Equipment Ordered with Surrogate UPINs       9                                      OEI-03-01-00270
         UPIN monitoring instructions to include DMERCs, and increasing central office/regional office
         monitoring of DMERCs’ UPIN activities. Appendix B contains the full text of CMS’
         comments.




Medical Equipment Ordered with Surrogate UPINs     10                                      OEI-03-01-00270
                                                                                             APPENDIX A




                             Estimates and Confidence Intervals



                                                                                                       PAGE

TABLE 1. 	 Services That Should Have Been Ordered Using a Permanent UPIN

           Rather Than a Surrogate UPIN . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


TABLE 2.         Services with Missing or Incomplete Documentation . . . . . . . . . . . . . . . . . . . . . . . . . 12


TABLE 3.         Undocumented Services Ordered Using a Surrogate UPIN . . . . . . . . . . . . . . . . . . . . 13


TABLE 4. Services Supported by Incomplete Documentation . . . . . . . . . . . . . . . . . . . . . . . . . . 13


TABLE 5. Items Missing from Documentation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


TABLE 6.         Services Supported by Incomplete CMNs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


TABLE 7.         Services with Supporting Documentation Dated After the Date of Service . . . . . . . . . 14





Medical Equipment Ordered with Surrogate UPINs             11                                              OEI-03-01-00270
                                                                                APPENDIX A



                             Estimates and Confidence Intervals


         The tables below contain statistical estimates presented in the Findings section of this report.
         These estimates are weighted based on the stratified random sample design and are reported at
         the 95 percent confidence level.

Table 1.
                 Services That Should Have Been Ordered Using a Permanent UPIN
                                   Rather Than a Surrogate UPIN


                                                       Point Estimate     95% Confidence Interval

 Percent of Services that Should Have Been Ordered    60.53%              52.89% - 68.17%
 with a Permanent UPIN

 Percent of Services where Ordering Physician had     37.93%              27.99% - 47.87%
 a Permanent UPIN for 5 or More Years

 Percent of Services where Ordering Physician had     16.60%              9.11% - 24.09%
 a Permanent UPIN for 10 or More Years


Table 2.
                            Services with Missing or Incomplete Documentation


                                                       Point Estimate     95% Confidence Interval

 Percent of Services with Missing or                  44.96%              37.02% - 52.90%
 Incomplete Documentation

 Total Medicare Allowances in 1999 for Services       $60,678,298         $42,226,787 - $79,129,808
 with Missing or Incomplete Documentation




Medical Equipment Ordered with Surrogate UPINs       12                                      OEI-03-01-00270
                                                                                   APPENDIX A
Table 3.
                        Undocumented Services Ordered Using a Surrogate UPIN


                                                           Point Estimate    95% Confidence Interval

 Percent of Services with                                  16.70%            10.76% - 22.64%
 No Supporting Documentation

 Percent of Services where Suppliers Did Not Submit        3.18%             0.65% - 5.71%
 Documentation After 3 Written Requests

 Percent of Services where Suppliers Responded but         13.53%            7.98% - 19.08%
 Did Not Submit Documentation

 Total Medicare Allowances in 1999 for Services            $16,600,257       $8,565,455 - $24,635,060
 Ordered with a Surrogate UPIN


Table 4.
                              Services Supported by Incomplete Documentation


                                                           Point Estimate    95% Confidence Interval

 Percent of Services Supported by Incomplete               28.26%            21.18% - 35.34%
 Documentation

 Total Medicare Allowances in 1999 for                     $44,078,040       $26,457,005 - $61,699,075
 Services Supported by Incomplete Documentation


Table 5.
                                       Items Missing from Documentation


                                                 Percent of Services        95% Confidence Interval

 Beneficiary’s Height Missing                    18.17%                     12.00% - 24.34%

 Beneficiary’s Weight Missing                    17.44%                     11.38% - 23.50%

 Physician’s UPIN Missing                        4.62%                      1.70% - 7.54%

 Supplier’s Billing Number Missing               3.89%                      1.32% - 6.46%

 Description of Item Ordered Missing             3.91%                      1.03% - 6.79%

Medical Equipment Ordered with Surrogate UPINs        13                                      OEI-03-01-00270
                                                                                  APPENDIX A


Table 6.
                                   Services Supported by Incomplete CMNs


                                                           Point Estimate    95% Confidence Interval

 Percent of Services with CMNs Containing                  25.35%            18.51% - 32.19%
 1 or More Missing Items

 Percent of Services with CMNs Containing                  8.82%             4.59% - 13.05%
 3 or More Missing Items




Table 7.
                                    Services with Supporting Documentation
                                        Dated After the Date of Service


                                                           Point Estimate    95% Confidence Interval

 Percent of Services with Documentation                    8.95%             4.36% - 13.54%
 Dated After the Date of Service

 Percent of These Services with a CMN Dated After          71.46%            47.45% - 95.47%
 the Date of Service

 Percent of These Services with an Order Dated After       28.54%            4.53% - 52.55%
 the Date of Service

 Total Medicare Allowances in 1999 for                     $15,081,142       $39,000 - $30,123,283
 Services with Documentation Dated
 After the Date of Service

 Percent of Services with Documentation                    5.84%             2.10% - 9.58%
 Dated 4 or More Months After the Date of Service

 Percent of Services with Documentation                    0.91%             0% - 2.36%
 Dated More Than 12 Months After the Date of
 Service




Medical Equipment Ordered with Surrogate UPINs        14                                      OEI-03-01-00270
                                                               APPENDIX B


                                  Comments from the

                        Centers for Medicare & Medicaid Services





Medical Equipment Ordered with Surrogate UPINs   15                 OEI-03-01-00270
                            ACKNOWLEDGMENTS

This report was prepared under the direction of Robert A. Vito, Regional Inspector General for
Evaluation and Inspections in Philadelphia and Linda M. Ragone, Deputy Regional Inspector General.
Other principal Office of Evaluation and Inspections staff who contributed include:

Robert Katz, Project Leader                      Tricia Davis, Program Specialist

Erika Lang, Lead Analyst                         Barbara Tedesco, Mathematical Statistician

Lauren McNulty, Program Analyst

Cynthia R. Hansford, Program Assistant





Medical Equipment Ordered with Surrogate UPINs     16                                    OEI-03-01-00270
